KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

March 13, 2020

BY MESSENGER AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Archer & White Sales Inc. v. Henry Schein, Inc., No. 19-1080

Dear Mr. Harris:
I represent respondent in the above-captioned case. Pursuant to Supreme
Court Rule 30.4, I hereby request a 29-day extension of time in which to file a
response to the cross-petition for a writ of certiorari in this case. The cross-petition
was docketed on March 3, 2020, and a response to the cross-petition is currently due
on April 2, 2020. If extended, the response would be due on May 1, 2020. Should you
need any additional information, please do not hesitate to let me know.
Yours sincerely,
Kannon K. Shanmugam

cc:

Lewis T. LeClair, Esq.

